     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



June 28, 2011

Report Number: A-09-11-02000

Mr. Toby Douglas
Director
California Department of Health Care Services
1501 Capitol Avenue, MS 0000
P.O. Box 997413
Sacramento, CA 95899-7413

Dear Mr. Douglas:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Credit Balances at Natividad Medical
Center as of October 31, 2010. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call
me, or contact Gerald Illies, Audit Manager, at (206) 615-2252 or through email at
Gerald.Illies@oig.hhs.gov. Please refer to report number A-09-11-02000 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




  REVIEW OF MEDICAID CREDIT
BALANCES AT NATIVIDAD MEDICAL
 CENTER AS OF OCTOBER 31, 2010




                       Daniel R. Levinson
                        Inspector General

                           June 2011
                         A-09-11-02000
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as
amended by P.L. No. 111-226, States’ FMAPs are temporarily increased for the period
October 1, 2008, through June 30, 2011.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b) and amended by section
6506(a)(1)(A) of the Patient Protection and Affordable Care Act (P.L. No. 111-148), states:
“… when an overpayment is discovered … the State shall have a period of 1 year in which to
recover or attempt to recover such overpayment before adjustment is made in the Federal
payment to such State on account of such overpayment. … [T]he adjustment in the Federal
payment shall be made at the end of the 1-year period, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Natividad Medical Center (Natividad) is a 172-bed acute-care hospital owned and operated by
Monterey County, California. Natividad reported that it was reimbursed by the State agency
$19.2 million for Medicaid services that it provided during the year ended June 30, 2010.




                                                i
OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Natividad’s
accounting records as of October 31, 2010, for inpatient and outpatient services represented
overpayments that Natividad should have returned to the Medicaid program.

SUMMARY OF FINDING

As of October 31, 2010, Natividad’s Medicaid accounts with credit balances included
32 accounts with overpayments totaling $31,125 ($19,170 Federal share) that had not been
returned to the Medicaid program. The Federal share consists of $15,563 that we calculated
using California’s regular FMAP and $3,607 in additional payments that we calculated using the
increased FMAP. The ages of the overpayments in the 32 accounts ranged from 34 to 649 days.

For 28 of the 32 accounts, Natividad did not return the overpayments because Natividad lacked
adequate policies and procedures to prevent, detect, and take proper corrective action in a timely
fashion. For the remaining four accounts, Natividad took timely action to request that the State
agency recoup the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $19,170 (Federal share) in Medicaid overpayments to
       Natividad and

   •   work with Natividad to ensure that it develops and implements adequate policies and
       procedures to prevent, detect, and take proper corrective action in a timely fashion for
       Medicaid overpayments.

NATIVIDAD COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, Natividad disagreed with our finding that it lacked adequate
policies and procedures to prevent, detect, and take proper corrective action in a timely fashion
for Medicaid overpayments. Natividad stated that for 30 of the 32 accounts with overpayments,
it had submitted requests for corrective action to the State agency in November 2010 and that
there were only 2 outstanding accounts with overpayments. Additionally, Natividad stated that it
had a policy for patient accounts’ credit balances and that its policies and procedures were
consistent with State Medicaid cost report instructions. Natividad’s comments are included in
their entirety as Appendix A.

For 28 accounts with overpayments, Natividad did not take corrective action in a timely manner.
Although Natividad had policies and procedures related to credit balances, the policies and
procedures did not contain timeframes for review or taking corrective action in a timely fashion.




                                                ii
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our first recommendation and
provided information on actions that it planned to take to address the first and second
recommendations. The State agency’s comments are included in their entirety as Appendix B.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program ................................................................................................1
              Medicaid Credit Balances ....................................................................................1
              Federal and State Requirements...........................................................................1
              Natividad Medical Center ....................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATIONS ...............................................................................3

          OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
           OVERPAYMENTS ......................................................................................................3

          RECOMMENDATIONS .................................................................................................4

          NATIVIDAD COMMENTS ...........................................................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................4

          STATE AGENCY COMMENTS ....................................................................................5

APPENDIXES

          A: NATIVIDAD MEDICAL CENTER COMMENTS

          B: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS




                                                                    iv
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (State agency) administers Medicaid.

The Federal Government pays its share of a State’s Medicaid payments based on the Federal
medical assistance percentage (FMAP), which varies depending on the State’s relative per capita
income. Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5
(Recovery Act), as amended by P.L. No. 111-226, States’ FMAPs are temporarily increased for
the period October 1, 2008, through June 30, 2011. The regular FMAP for California’s
Medicaid payments was 50 percent. The FMAP increased by 11.59 percentage points to
61.59 percent because of the Recovery Act.

Medicaid Credit Balances

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b) and amended by section
6506(a)(1)(A) of the Patient Protection and Affordable Care Act (P.L. No. 111-148), states:
“… when an overpayment is discovered … the State shall have a period of 1 year in which to
recover or attempt to recover such overpayment before adjustment is made in the Federal
payment to such State on account of such overpayment. … [T]he adjustment in the Federal
payment shall be made at the end of the 1-year period, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers




                                                1
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Providers must submit their annual Medicaid cost reports within 150 days after the end of the
provider fiscal year. Pursuant to section 14170(a)(1) of the California Welfare and Institutions
Code, the State agency has 3 years after the provider’s fiscal year or the date of the submission,
whichever is later, to audit or review the cost report.

Natividad Medical Center

Natividad Medical Center (Natividad) is a 172-bed acute-care hospital owned and operated by
Monterey County, California. Natividad reported that it was reimbursed by the State agency
$19.2 million for Medicaid services that it provided during the year ended June 30, 2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Natividad’s
accounting records as of October 31, 2010, for inpatient and outpatient services represented
overpayments that Natividad should have returned to the Medicaid program.

Scope

Natividad’s inpatient and outpatient accounting records contained 1,226 Medicaid accounts with
credit balances totaling $396,993 as of October 31, 2010. We reviewed 150 accounts with credit
balances of $600 or more, totaling $215,510. Of these accounts, 32 accounts included
38 overpayments due to the Medicaid program: 28 accounts contained 1 overpayment,
2 accounts contained 2 overpayments, and 2 accounts contained 3 overpayments.

Our objective did not require an understanding or assessment of the complete internal control
system at Natividad. We limited our review of internal controls to obtaining an understanding of
the policies and procedures that Natividad used to review credit balances and report
overpayments to the State Medicaid program.

We performed our fieldwork at Natividad Medical Center in Salinas, California, from
November 2010 to March 2011.

Methodology

To accomplish our objective, we:

   •    reviewed Federal and State requirements pertaining to Medicaid credit balances and
        overpayments;




                                                 2
   •   reviewed Natividad’s policies and procedures for reviewing credit balances and reporting
       overpayments to the State agency;

   •   traced Natividad’s October 31, 2010, total credit balances to the accounts receivable
       records and traced the accounts receivable records to the balance sheet;

   •   identified Natividad’s Medicaid credit balances from its accounting records and
       reconciled these credit balances to Natividad’s Medicaid credit balances report as of
       October 31, 2010;

   •   reviewed Natividad’s accounting records for accounts with credit balances of $600 or
       more, including patient payment data, Medicaid claim forms and remittance advices,
       patient accounts receivable detail, and additional supporting documentation;

   •   calculated the Federal share of overpayments by applying the regular FMAP of
       50 percent and the additional FMAP of 11.59 percentage points; and

   •   coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of October 31, 2010, Natividad’s Medicaid accounts with credit balances included
32 accounts with overpayments totaling $31,125 ($19,170 Federal share) that had not been
returned to the Medicaid program.

OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
OVERPAYMENTS

As of October 31, 2010, Natividad’s Medicaid accounts with credit balances included
32 accounts with overpayments totaling $31,125 ($19,170 Federal share) that had not been
returned to the Medicaid program. The Federal share consists of $15,563 that we calculated
using California’s regular FMAP and $3,607 in additional payments that we calculated using the
increased FMAP.

The ages of the overpayments in the 32 accounts ranged from 34 to 649 days, as the table on the
following page summarizes.




                                                3
                        Ages of Overpayments as of October 31, 2010

                                                    Overpayment            Federal
              Days            No. of Accounts         Amount                Share
              1–90                    3                    $154                  $95
              91–180                  8                   9,726                5,990
              181–270                 8                  10,909                6,719
              271–365                 5                   4,867                2,998
              366–649                 8                   5,469                3,368
              Total                  32                 $31,125              $19,170

For 28 of the 32 accounts, Natividad did not return the overpayments because Natividad lacked
adequate policies and procedures to prevent, detect, and take proper corrective action in a timely
fashion. For the remaining four accounts, Natividad took timely action to request that the State
agency recoup the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $19,170 (Federal share) in Medicaid overpayments to
       Natividad and

   •   work with Natividad to ensure that it develops and implements adequate policies and
       procedures to prevent, detect, and take proper corrective action in a timely fashion for
       Medicaid overpayments.

NATIVIDAD COMMENTS

In its comments on our draft report, Natividad disagreed with our finding that it lacked adequate
policies and procedures to prevent, detect, and take proper corrective action in a timely fashion
for Medicaid overpayments. Natividad stated that for 30 of the 32 accounts with overpayments,
it had submitted requests for corrective action to the State agency in November 2010 and that
there were only 2 outstanding accounts with overpayments. Additionally, Natividad stated that it
had a policy for patient accounts’ credit balances and that its policies and procedures were
consistent with State Medicaid cost report instructions. Natividad’s comments are included in
their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE

For 4 of the 32 accounts with overpayments, Natividad had submitted requests for corrective
action within 60 days. (For one of these accounts, the State agency had not taken action and the
credit balance had been due back to Medicaid for over 6 months.) For the remaining 28
accounts, Natividad did not take corrective action in a timely manner: 21 of these accounts were
more than 6 months overdue, including 8 accounts that were more than 1 year overdue.


                                                4
Although Natividad had policies and procedures related to credit balances, the policies and
procedures did not contain timeframes for review or taking corrective action in a timely fashion.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our first recommendation and
provided information on actions that it planned to take to address the first and second
recommendations. The State agency’s comments are included in their entirety as Appendix B.




                                                5
APPENDIXES
                                                                                                                      Page 1 of2


    APPENDIX A: NATIVIDAD MEDICAL CENTER COMMENTS 





                                                                                    A,\\ Natividad
4/22/2011
                                                                                               MEDICAL CENTER
                                                                       1441 Con.tiM;on BI~d . • S"linol, Colif"rnio 93906
                                                                       P.O, Bo ~ 80007 • SolinOl, Coli/o,nio 93912·0007
                                                                                  831 . 755.4252 . fAX 83 1.75 5. 408 7
Ms. Lori A. Ahlstrand
                                                                                                      www.notividod.(om

Regional Inspector General

Office o f Audit Services, Region IX

90-7" Street, Suite 3-650

San Francisco, CA 94103

Re: A·Q9·11·02000

Dear Ms. Ahlstrand,

This letter responds to the U.s. Depart me nt of Health & Human services, Office o f Inspector General
(D IG). and ent itled Review of Medicaid Credit Balances at Nativid ad Medical Center as of October 31,
2010 ("Draft Reporn

Na tivid ad Medical Cente r respectfully disagrees with t he auditor's finding t hat fo r t he 28 of the 32
accounts, " Natividad lacked adequate pol icies and procedures to prevent, detect, and take prope r
corrective attion in a timely fash ion." (Paragraph 2, Summary of Finding.)

    1. 	 Natividad Medical Center performs regular credit ba lance reviews as described by the Policy and
        Procedures for patien t credi t balances. Account s identified with a refund to the State are
        processed by submitting a CIF to the State and payments are made once t he CIF is accepted by
        the Medi-Cal State agency. Natividad e~periences a large delay of processing crFs by M edi·Cal
        which delays the credit balance being corrected t imety. Of the 32 accounts found by t he
        auditors with overpayments totaling $3 1,125, NMC has submitted CIFs for 30 accounts with
        $30,966 to the Sta te during November 2010 There wefe two outstanding accounts with
        overpayments of $1S9.

    2. 	 Na tividad Medical Center has a Policy and Procedure for patient accounts cred it balance. Such 

        Policy was provided to the audi t ors during t he audit review. 


    3 . 	 The Policy and Procedures are consistent with State's Medi·cal cos t report ins tructions . It is
        Nativid ad Medical Center policy and practice to report outs tanding credit balances as parI of its
        annual cost report submission and refunds any overpayments when the St ate agency settles the
        cost report. NatiYidad follo wed its reporting policy and practice when il submi tt ed its annual
        cost report for fiscal year 2008, wh ich the State is currently aUditing.

For the reasons sta ted above, Natividad Med ical Center has adequate and reasonable controls to
monitor and manage Medi·cal pa t ients' credit balances.
                                                                                                         Page 2 of2




Natividad Medical Center requests that the draft report entitled Review o f Medicaid Credit Balance at
Natividad Medical Center as of October 31, 2010 performed by the Office of Inspect or General are
modified accordingly.

Respect fully,




Daniel Leon
Chief Financial Officer
Natividad Medical Cen ter

Cc: 	   !iraq Saell a
        Bili li tt
        Harry Weis
                                                                                                                Page 1 of3


APPENDIX B: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 


                            State of California-Health and Human Services Agency
  "HCS                      Department of Health Care Services

  --~
  TOBY DOUGLAS
    DIRECTOR
                                                                                                      EDMUND G. BROWN JR.
                                                                                                          GOVERNOR



        JUNO .lon
      Ms. Lori A. Ahstrand
      Regional Inspector General for Audit Services
      Office of Inspector General
      Office of Audit Services, Region IX
      90 7th Street, Suite 3-650
      San Francisco, CA 94103

      Dear Ms. Ahlstrand:

      The California Department of Health Care Services (DHCS) has prepared its response
      to the U.S. Department of Health and Human Services, Office of Inspector General
      (OIG), draft report entitled "Review of Medicaid Credit Balances at Natividad Medical
      Center as of October 31,2010" (A-09-11-02000). DHCS appreciates the work
      performed by the OIG and the opportunity to respond to the draft report.

      Please contact Ms. Alicia M. Enriquez, Chief Internal Audits, at (916) 650-0298 if you
      have any questions.

      Sincerely,


   ~---....
          - -~
                    ..

  ..P~bY Douglas               -
  1) Director
      cc:        See next page




                   1501 Capitol Avenue, Suite 71.6001, MS 0000· P.O. 997413· Sacramento, CA 95899-7413 

                                             (916) 440-7400· (916) 440-7404 FAX 

                                               Internet address: www.dhcs.ca.gov 

                                           Page 2 of3




Ms. Lori A. Ahlstrand
Page 2
June 8, 2011



cc:   Ms. Karen Johnson
      Chief Deputy Director
      1501 Capitol Avenue, MS 0005
      P.O. Box 997413
      Sacramento, CA 95899-7413

      Mr. Bruce Um
      Deputy Director
      Audits and Investigations Division
      1500 Capitol Avenue, MS 2000
       P.O. Box 997413
      Sacramento, CA 95899-7413

      Mr. Bill Alameda , Chief
      Financial Audits Branch
      Audits and Investigations Division
      1500 Capitol Avenue, MS 2100
       P.O. Box 997413
      Sacramento, CA 95899-7413
                                                                                               Page 3 of3




                           Department of Health Care Services 

             Response to the Office of Inspector General's Draft Report Entitled 


                           Review of Medicaid Credit Balances at 

                      Natividad Medics' Center as of October 31, 2010 



Recommendation:        We recommend that the State agency refund to the Federal Government
                       $19,170 (Federal share) in Medicaid overpayments to Natividad_

Response:              The Department of Health Care Services (DHCS) agrees with the
                       recommendation .

                      Within 15 days , DHCS will establish an accounts receivable and send a
                      demand letter to Nat ividad for the amount of $31 ,125 in Medicaid
                      overpayments. Repayment must be made within 60 days from the date
                      of the demand letter.

Recommendation:        We recommend that the State agency wol1< with Natividad to ensure that
                       it develops and implements adequate policies and procedures to
                       prevent, detect and take proper corrective action for Medicaid
                       overpayments.

Response :            The DHCS Financial Audits Branch (FAB) conducts annual Medi-Cal
                      cost report audits of all acute care faci lities . These audits include steps
                      to review for credit balances. The audit of future cost reports for
                      Natividad Medical Center will include a review for credit balances. FAB
                      will work with Natividad during these audits to ensure adequate policies
                      and procedures are developed.




                                                1
